NO. 20-5715

IN THE SUPREME COURT OF THE UNITED STATES

MARTIN ROGELIO LONGORIA,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
SCOTT A. MARTIN, appointed under the Criminal Justice Act, certifies that,
pursuant to Rule 29.5, he served the preceding Reply Brief for Petitioner on counsel for
the Respondent (1) by mailing, on February 10, 2021, a copy of this document (via firstclass United States mail, postage prepaid) to:
The Honorable Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on February 10, 2021, the said document via electronic mail to
the Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served have
been served.

____________________________
SCOTT A. MARTIN

